App. 1
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
----------------------------------------------------------------------------------------

STANDING AKIMBO, LLC, a
Colorado limited liability company;
Peter Hermes, an individual;
Kevin Desilet, an individual;
Samantha Murphy, an individual;
John Murphy, an individual,
Petitioners-Appellants,

No. 19-1049

v.
UNITED STATES of America,
THROUGH its agency the
INTERNAL REVENUE SERVICE,
Respondent-Appellee.
----------------------------------------------------------------------------------------

Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:17-MC-00169-WJM-KLM)
----------------------------------------------------------------------------------------

(Filed Apr. 7, 2020)
James D. Thorburn (Richard A. Walker with him on the
briefs), of Thorburn Walker, LLC, Greenwood Village,
Colorado, for Petitioners-Appellants.

App. 2
S. Pollock, Attorney, Tax Division (Richard E.
Zuckerman, Principal Deputy Assistant Attorney
General; Travis A. Greaves, Deputy Assistant Attorney
General; Gilbert S. Rothenberg and Michael J. Haungs,
Attorneys, Tax Division; Jason R. Dunn, United States
Attorney, Denver, Colorado, of Counsel, with him on
the brief ), Department of Justice, Washington, D.C.,
for Respondent-Appellee.
----------------------------------------------------------------------------------------

Before LUCERO, PHILLIPS, and MORITZ, Circuit
Judges.
----------------------------------------------------------------------------------------

PHILLIPS, Circuit Judge.
----------------------------------------------------------------------------------------

The Internal Revenue Service (IRS) is responsible
to enforce the federal tax code against marijuana businesses operating legally under state law. This led to a
civil audit of Peter Hermes, Kevin Desilet, Samantha
Murphy, and John Murphy (collectively, the “Taxpayers”) to verify their tax liabilities for their medicalmarijuana dispensary, Standing Akimbo, LLC. The IRS
was investigating whether the Taxpayers had taken
improper deductions for business expenses arising
from a “trade or business” that “consists of trafficking
in controlled substances.” 26 U.S.C. § 280E. But claiming to fear criminal prosecution, the Taxpayers declined to provide the audit information to the IRS. This
left the IRS to seek the information elsewhere—it issued four summonses for plant reports, gross-sales

App. 3
reports and license information to the Colorado Department of Revenue’s Marijuana Enforcement Division (the “Enforcement Division”), which is the state
entity responsible for regulating licensed marijuana
sales.
In Colorado federal district court, the Taxpayers
filed a petition to quash the summonses. The government moved to dismiss the petition and to enforce the
summonses. The district court granted the motion to
dismiss and ordered the summonses enforced. Exercising jurisdiction under 28 U.S.C. § 1291, we affirm.
BACKGROUND
I.

The Audit

The Taxpayers own Standing Akimbo, and Samantha Murphy is its business manager.1 Standing
Akimbo is a Colorado Limited Liability Company operating a medical-marijuana dispensary in Denver,
Colorado. Though such dispensaries are legal under
Colorado law, see Colo. Rev. Stat. Ann. § 44-10-102
(West 2020), “marijuana is still classified as a federal
‘controlled substance’ under schedule I of the [Controlled Substances Act (CSA)],” Green Sol. Retail, Inc.
v. United States, 855 F.3d 1111, 1113 (10th Cir. 2017)
(citations omitted), cert. denied, 138 S. Ct. 1281 (2018);
see also 21 U.S.C. §§ 812 (listing marijuana as a
1

The magistrate judge noted in her recommendation to the
district judge that the Taxpayers are “believed to be the owners
of Standing Akimbo, although none admit ownership in their
Petition.” App. vol. 2 at 74.

App. 4
Schedule I controlled substance), 841 (prohibiting distribution of a controlled substance). This federal classification has federal tax consequences for marijuana
dispensaries, such as § 280E’s prohibition on their deducting business expenses. See 26 U.S.C. § 280E.
In May 2017, the IRS began investigating whether
Standing Akimbo had claimed business deductions
prohibited by § 280E. That month, IRS Revenue Agent
Tyler Pringle provided Standing Akimbo written notice (in a letter) that the IRS was auditing its return
for the 2014 tax year. In the letter, Agent Pringle asked
that Standing Akimbo call him to discuss the items
and documents he intended to request. Agent Pringle
enclosed a copy of Publication 1, which outlines the
IRS’s audit procedures. Under a section titled “Potential Third Party Contacts,” this publication notes that
the IRS may “sometimes talk with other persons if we
need information that you have been unable to provide,
or to verify information we have received.” Internal
Revenue Serv., Dep’t of the Treasury, Catalog No. 64731W,
Publication 1: Your Rights as a Taxpayer (Rev. 9-2017),
https://www.irs.gov/pub/irs-pdf/p1.pdf.2 In a second letter, this one in June 2017, Agent Pringle notified
Standing Akimbo that the IRS had expanded the audit

2

On appeal, the parties have not provided a copy of this publication, but we may take judicial notice of official government
publications. See High Desert Relief, Inc. v. United States, 917
F.3d 1170, 1175 n.1 (10th Cir. 2019) (citing Pueblo of Sandia v.
United States, 50 F.3d 856, 861 n.6 (10th Cir. 1995); Fed. R. Evid.
201(b)(2)).

App. 5
to include its return for the 2015 tax year, because it
raised the same issues as the 2014 return.
Because Standing Akimbo is a pass-through entity, its audit would necessarily affect its owners’ tax
returns. So Agent Pringle also sent letters, with Publication 1 attached, to Hermes and the Murphys, notifying them that the IRS would be examining their
personal-income-tax returns for the 2014 and 2015 tax
years. Agent Pringle had already notified Desilet that
the IRS was examining his personal-income-tax liabilities for 2014, 2015, and 2016 because it had no record
of his filing returns for these years.
3

As part of the examinations, Agent Pringle sent
the Taxpayers an Information Document Request relating to the 2014 tax year. The Document Request
sought, among other things, a list of licenses held by
Standing Akimbo and the Taxpayers, as well as some
specific reports from the Enforcement Division’s Marijuana Enforcement Tracking Reporting Compliance
(“METRC”) system: the annual gross-sales report,
transfer report, annual harvest report, and monthlyplant-inventory reports. A month later, after receiving
no response, Agent Pringle issued a second Document
Request requesting the same information. Then, when
the IRS expanded the audit to include the 2015 tax
3

For a pass-through entity, profits “pass through” the business to the owners and are taxed under the individual-income tax;
pass-through entities are not subject to corporate-income tax. See
What Are Pass-Through Businesses, Tax Pol’y Ctr., https://www.
taxpolicycenter.org/briefing-book/what-are-pass-through-businesses
(last visited Feb. 6, 2020).

App. 6
year, Agent Pringle issued a third Document Request
requesting this same information for 2015.
The Taxpayers only partially responded to these
Document Requests and did not provide enough information to substantiate their returns. For example, the
Taxpayers provided none of the requested METRC reports. They claimed that Agent Pringle was in fact investigating federal drug crimes and declined to provide
potentially incriminating evidence without receiving
immunity from prosecution.
The information the Taxpayers did provide was so
minimal and incomplete that Agent Pringle could not
verify the accuracy of their returns. Accordingly, Agent
Pringle used other means to assist him in evaluating
the returns: he issued four third-party summonses to
the Enforcement Division. One summons regarded
Standing Akimbo and requested a list of the licenses it
had held from 2014 through 2015, as well as its
METRC annual gross-sales reports, transfer reports,
annual harvest reports, and monthly plant-inventory
reports for 2014 and 2015 (the “Standing Akimbo
summons”). The other three summonses regarded the
Taxpayers—one each for Hermes, Desilet, and the
Murphys—requesting a list of the licenses they had
held in 2014 and 2015 (collectively, the “Taxpayers
summonses”). Agent Pringle provided the Taxpayers
copies of all the summonses, along with an explanation
of their right to petition to quash the summonses.

App. 7
II.

The Resulting Litigation

In Colorado federal district court, the Taxpayers
filed a petition to quash the summonses. They asserted
that none of the summonses satisfied the Supreme
Court’s requirements for enforcement as announced in
United States v. Powell, 379 U.S. 48 (1964). Specifically,
the Taxpayers argued that the summonses lack a legitimate purpose, are deficient because the IRS failed to
follow necessary administrative steps, exceed the IRS’s
authority by forcing the Enforcement Division to create reports, and impermissibly seek the identity of
third-party taxpayers. The Taxpayers also requested
an evidentiary hearing to determine whether the summonses satisfied the Powell requirements.
The government moved to dismiss the petition under Federal Rule of Civil Procedure 12(b)(6) and to enforce the summonses under 26 U.S.C. §§ 7604(a) and
7609(b)(2)(A), arguing that Agent Pringle’s appended
declaration established that the summonses satisfied
Powell’s requirements. The Taxpayers responded by reasserting their initial grounds for quashing the summonses and listing six more: (1) Congress has not
authorized the IRS to investigate drug crimes, (2) the
IRS must grant absolute immunity before collecting
nontax-crime information for tax purposes, (3) the
summonses violate the Taxpayers’ Fourth Amendment
privacy rights, (4) the summonses are overbroad, (5)
the IRS’s investigation into nontax crimes violates
Powell’s good-faith requirement, and (6) enforcing the
summonses would compel a violation of Colorado law.
The Taxpayers also noted that they “are fully asserting

App. 8
Fifth Amendment privilege” in light of the IRS’s supposed admission that the audit is “an investigation of
whether the [T]axpayers violated federal criminal
drug laws[.]” App. vol. 1 at 118. Finally, they argued
that because the motion to dismiss relies on information outside the pleadings, the district court must
convert it into a motion for summary judgment.
The district judge referred the matter to a magistrate judge. The magistrate judge did not convert the
motion to dismiss into a motion for summary judgment, but she still relied on Agent Pringle’s declaration
in concluding that the IRS had met Powell’s requirements. In addition, of course, the magistrate judge had
available before her the Taxpayers’ attachments to
their response to the motion to dismiss. The magistrate
judge concluded that the Taxpayers had not sufficiently supported their arguments against enforcement. So the magistrate judge recommended denying
the petition to quash, granting the motion to dismiss,
and enforcing the summonses. The magistrate judge
also informed the parties of their right to object to the
recommendation and warned that failing to object
would waive de novo review by the district judge and
would waive appellate review.
The Taxpayers timely objected to eight of the magistrate judge’s rulings: (1) that the IRS had issued the
summonses for a legitimate purpose, (2) that the information summoned is relevant to that purpose, (3) that
the IRS does not already possess the information summoned, (4) that the potential for criminal prosecution
does not show any bad faith by the IRS, (5) that

App. 9
enforcement would not improperly compel document
creation, (6) that the Fourth Amendment does not protect the information summoned, (7) that the summonses are not overbroad, and (8) that enforcement
would not compel a violation of state law. But the district judge overruled the objections and fully adopted
the recommendation. After considering these arguments, the district judge denied the petition to quash,
granted the motion to dismiss, and enforced the summonses. The Taxpayers have timely appealed the magistrate judge’s recommendation and the district judge’s
order.
DISCUSSION
This case is grounded in the IRS’s statutory power
to issue summonses to assess taxes. We first provide an
overview of this power and the framework that courts
follow when asked to enforce such a summons. Then
we turn to our standard of review. Finally, we address
the Taxpayers’ three main arguments why we should
reverse and remand either for discovery or an evidentiary hearing.
First, the Taxpayers argue that the district court
applied the wrong standard of review by not converting the motion to dismiss into a motion for summary
judgment. Second, they assert that the district court
misapplied Powell. Third, they argue that they created
an issue of fact regarding the IRS’s lack of good faith
or its abuse of the court’s process in enforcing the

App. 10
summonses. We address each argument in turn and
conclude that the Taxpayers fail at each step. We affirm.
I.

The IRS’s Summons Power

Congress authorizes and requires the IRS “to
make the inquiries, determinations, and assessments
of all taxes . . . imposed by” the Internal Revenue Code
(title 26 of the U.S. Code). 26 U.S.C. § 6201(a). As part
of this authority, Congress empowered the IRS with
“broad latitude to issue summonses ‘[f ]or the purpose
of ascertaining the correctness of any return, making
a return where none has been made, determining the
liability of any person for any internal revenue tax . . .
, or collecting any such liability.’ ” United States v.
Clarke, 573 U.S. 248, 250 (2014) (alteration in original)
(quoting 26 U.S.C. § 7602(a)). The IRS has authority to
issue summonses to the subject taxpayer and to third
parties who may have relevant information. See 26
U.S.C. § 7602(a)(2); High Desert Relief, Inc. v. United
States, 917 F.3d 1170, 1181 (10th Cir. 2019).
But the IRS has limits on its ability to issue and
enforce third-party summonses. For example, the IRS
must provide the taxpayer with notice of such a summons, and the taxpayer may intervene in any enforcement proceeding. See 26 U.S.C. § 7609(a)–(b). The
taxpayer also has the right to petition a district court
to quash the third-party summons. Id. § 7609(b). The
federal “district court for the district within which the
person to be summoned resides or is found shall have

App. 11
jurisdiction to hear and determine [such] proceeding
. . . [and a]n order denying the petition shall be deemed
a final order which may be appealed.” Id. § 7609(h)(1).
In that same proceeding, the IRS may counterclaim to
enforce the summons, and the district court’s decision
will bind the third party “whether or not the person
intervenes in such proceeding[.]” Id. § 7609(b)(2)(A),
(C). Such proceedings “should be summary in nature
and discovery should be limited.” High Desert, 917 F.3d
at 1181 (quoting United States v. Stuart, 489 U.S. 353,
369 (1989)) (internal quotation marks omitted).
Courts operate under a familiar framework during
such proceedings. See id. at 1181–82 (quoting Sugarloaf Funding, LLC v. U.S. Dep’t of the Treasury, 584
F.3d 340, 345 (1st Cir. 2009)). “As a threshold matter,
the IRS must first show that it has not made a referral
of the taxpayer’s case to the Department of Justice
(‘DOJ’) for criminal prosecution.” Id. at 1182 (citing
Anaya v. United States, 815 F.2d 1373, 1377 (10th Cir.
1987)); see also United States v. LaSalle Nat’l Bank,
437 U.S. 298, 311–13 (1978). Then “the IRS ‘need only
demonstrate good faith in issuing the summons[,]’ . . .
[which] means establishing what have become known
as the Powell factors[.]” Clarke, 573 U.S. at 250 (quoting Stuart, 489 U.S. at 359). Powell requires that the
IRS establish: (1) “that the investigation will be conducted pursuant to a legitimate purpose,” (2) “that the
inquiry may be relevant to the purpose,” (3) “that the
information sought is not already within the [IRS’s]
possession,” and (4) “that the administrative steps

App. 12
required by the [Internal Revenue] Code have been followed.” 379 U.S. at 57–58.
The IRS’s burden on these factors is slight “because the statute must be read broadly to ensure that
the enforcement powers of the IRS are not unduly restricted.” United States v. Balanced Fin. Mgmt., Inc.,
769 F.2d 1440, 1443 (10th Cir. 1985) (citing United
States v. Kis, 658 F.2d 526, 536 (7th Cir. 1981)). The IRS
generally meets this burden with an affidavit of the
agent who issued the summons. See id. (quoting
United States v. Garden State Nat’l Bank, 607 F.2d 61,
68 (3d Cir. 1979); and citing Kis, 658 F.2d at 537). The
burden then shifts to the taxpayer to factually refute
the Powell showing or factually support an affirmative
defense—conclusory allegations are insufficient. See
id. at 1444 (quoting Garden State, 607 F.2d at 71). This
is a heavy burden. Id. (citing Garden State, 607 F.2d at
68). If the taxpayer cannot meet this burden, “the district court should dispose of the proceeding on the papers before it and without an evidentiary hearing”—a
hearing may be granted only if the burden is met. Id.
at 1444 & n.2 (quoting Garden State, 607 F.2d at 71)
(internal quotation marks omitted). Further, limited
discovery is available “only in extraordinary situations” for “those defenses where . . . the taxpayer must
rely on information peculiarly within the knowledge or
files of the Service.” Id. at 1445 (citations and internal
quotation marks omitted). “Because ‘the burden of
showing an abuse of the Court’s process is on the taxpayer, it is . . . clear that the taxpayer must make a
substantial preliminary showing before even limited

App. 13
discovery need be ordered.’ ” Id. (quoting United States
v. Morgan Guar. Tr. Co., 572 F.2d 36, 42–43 n.9 (2d Cir.
1978)).
II.

Standard of Review

We review for an abuse of discretion the district
court’s denial of the Taxpayers’ petition to quash. See
High Desert, 917 F.3d at 1179 (citing Jewell v. United
States, 749 F.3d 1295, 1297 (10th Cir. 2014)). Committing an error of law constitutes an abuse of discretion.
See id. (quoting Wyandotte Nation v. Sebelius, 443 F.3d
1247, 1252 (10th Cir. 2006)). And because the district
court’s decision on the petition turned on issues of law,
we review de novo. We also review de novo the district
court’s grant of the IRS’s motion to dismiss the petition
and to enforce the summonses.4 See id. (citing Jewell,
749 F.3d at 1297).
In determining whether the IRS met Powell’s requirements, we must consider something outside the
pleadings (i.e., Agent Pringle’s declaration). Because
we are considering Agent Pringle’s declaration, the
IRS’s motion to dismiss “must be treated as one for
summary judgment under Rule 56.” Fed. R. Civ. P.
12(d). The district court correctly applied the Powell
framework but erred by considering Agent Pringle’s
4

Though we have, at times, reviewed a district court’s decision to enforce a summons for clear error, we review de novo here
because the district court made no factual findings and its ruling
rested solely on legal issues. See, e.g., High Desert, 917 F.3d at
1179 n.4.

App. 14
declaration without converting the motion to dismiss
to a motion for summary judgment. But we will not reverse or remand on this error, because “we may affirm
on any basis that the record adequately supports.”5
High Desert, 917 F.3d at 1181 (citing Safe Streets All.
v. Hickenlooper, 859 F.3d 865, 879 (10th Cir. 2017);
Champagne Metals v. Ken-Mac Metals, Inc., 458 F.3d
1073, 1088 (10th Cir. 2006)). And the record supports
the government’s position under the summary-judgment
standard.
Thus, we will apply our traditional Rule 56 summaryjudgment standard in assessing this case. See id. In so
doing, “we will view the record in the light most favorable to [the Taxpayers] and ask whether the IRS has
shown that there are no genuine disputes of material
fact and that it is entitled to judgment as a matter of
law.” Id. (citing Jewell, 749 F.3d at 1297). Because
“ ‘[t]he substantive law at issue determines which facts
are material in a given case[,]’ . . . the substantive rubric that the Supreme Court defined in Powell is of
central importance in our determination of whether
there are genuine disputes of material fact here.” Id.
(first alteration in original) (citations omitted) (quoting
Beaird v. Seagate Tech., Inc., 145 F.3d 1159, 1165
(10th Cir. 1998)). Notably, our traditional summaryjudgment standard of review precludes the Taxpayers
5

So, while we agree with the Taxpayers that the district
court applied the wrong standard of review, we do not grant them
relief. Further, they waived appellate review of this argument by
failing to raise it in their objections to the magistrate judge’s recommendation. See, e.g., Makin v. Colo. Dep’t of Corr., 183 F.3d
1205, 1210 (10th Cir. 1999).

App. 15
from resting on conclusory statements because “such
statements ‘do not suffice to create a genuine issue of
material fact.’ ” Id. (quoting Adler v. Wal-Mart Stores,
Inc., 144 F.3d 664, 674 (10th Cir. 1998)).
III. The Summonses Satisfy Powell.
We now must determine whether the IRS proffered sufficient evidence to pass the no-DOJ-referral
threshold and to establish the four Powell factors. We
address each factor in turn and consider whether the
Taxpayers have provided evidence to establish a genuine issue of material fact. We conclude that the government’s evidence passes the no-DOJ-referral threshold
and satisfies its Powell burden and that the Taxpayers
have failed to rebut it.
A. The IRS Has Not Referred the Taxpayers’ Case to the DOJ for Criminal Prosecution.
The threshold question is whether the IRS has referred the Taxpayers’ case to the DOJ for criminal
prosecution. See, e.g., High Desert, 917 F.3d at 1183.
The IRS easily meets this slight burden with Agent
Pringle’s declaration. Agent Pringle declared under
penalty of perjury that “[n]o Department of Justice referral, as defined by 26 U.S.C. § 7602(d), is in effect
with respect to Standing Akimbo, LLC, . . . Peter Hermes, John Murphy, Samantha Murphy, or Kevin Desilet for the tax periods under examination.” App. vol. 1
at 74–75 (Decl. of Agent Tyler Pringle, dated Dec. 19,

App. 16
2017). “Such an ‘affidavit of the agent who issued the
summons and who is seeking enforcement’ is sufficient
to make ‘[t]he requisite showing.’ ” High Desert, 917
F.3d at 1184 (second alteration in original) (quoting
Balanced Fin. Mgmt., 769 F.2d at 1443). The Taxpayers
do not contest that this threshold matter has been
met.6
B. The IRS Is Conducting the Investigation for a Legitimate Purpose.
Next, we reach Powell’s first factor: whether “the
investigation will be conducted pursuant to a legitimate purpose.” 379 U.S. at 57. Agent Pringle’s declaration again satisfies the IRS’s slight burden on this
factor. Agent Pringle declared: “The IRS has assigned
me to conduct an examination of the federal tax liabilities of Standing Akimbo, LLC, for the 2014 and 2015
tax years.” App. vol. 1 at 71. He also stated that, because Standing Akimbo’s audit would affect its owners’
tax returns, he opened examinations into the personalincome-tax returns of Desilet, the Murphys, and Hermes. He explained that, because the Taxpayers did not
adequately respond to his Document Requests, he issued the third-party summonses to obtain the needed
information to “verify the accuracy of Standing
Akimbo’s internal books and records and to determine
6

In its motion to dismiss, the government acknowledged
that it bears the burden of establishing this matter, arguing that
it did so through Agent Pringle’s declaration. The Taxpayers did
not respond to this contention in their response, and the magistrate judge’s recommendation did not address it.

App. 17
whether what Standing Akimbo reported on its returns is consistent with that information.” Id. at 73. As
we will discuss in the next section concerning Powell’s
second factor, the information summoned is relevant in
determining whether the Taxpayers violated § 280E by
taking improper deductions. Agent Pringle’s declaration sufficiently establishes that the IRS acted with a
legitimate purpose. See High Desert, 917 F.3d at 1184
(explaining that the agent’s affidavit meets IRS’s slight
burden).
In response, the Taxpayers argue that the IRS
acted with an illegitimate purpose, namely, investigating federal drug crimes. We have already rejected this
argument. In 2017, we observed that “the IRS’s obligation to determine whether and when to deny deductions under § 280E[ ] falls squarely within its authority
under the Tax Code.” Green Sol. Retail, 855 F.3d at
1121 (citing 26 U.S.C. §§ 6201(a), 7602(a); Clarke, 573
U.S. at 249). The next year we held that “it is within
the IRS’s statutory authority to determine, as a matter
of civil tax law, whether taxpayers have trafficked in
controlled substances.” Alpenglow Botanicals, LLC v.
United States, 894 F.3d 1187, 1197 (10th Cir. 2018),
cert. denied, 139 S. Ct. 2745 (2019). Most recently, in
High Desert, we relied on Green Solution and Alpenglow to hold that the IRS has statutory authority to
“mak[e] a determination that Congress expressly
asked it to make—even if that determination requires
the IRS to ascertain whether the taxpayer is engaged
in conduct that could subject him or her to criminal liability under the CSA.” High Desert, 917 F.3d at 1187.

App. 18
So, even if the IRS had in fact issued the summonses
to investigate federal drug crimes (and the Taxpayers
have furnished no evidence in support of that), the IRS
could still do so as part of determining § 280E’s applicability. See id. (“Congress ‘granted the [IRS] broad
latitude to issue summonses “[f ]or the purpose of . . .
determining the liability of any person for any internal
revenue tax.” ’ ” (alterations in original) (quoting
Clarke, 573 U.S. at 250)).7
The Taxpayers posit that they are not violating the
CSA, because the CSA does not cover Colorado’s legal
marijuana. First, the Taxpayers’ requests for immunity from prosecution for federal drug crimes contradict
this argument. Second, this argument is unavailing.
The CSA does not have to preempt Colorado law for
§ 280E to apply. Section 280E applies when a business’s activities “consist[ ] of trafficking in controlled
substances (within the meaning of schedule I and II of
7

In a Federal Rule of Appellate Procedure 28(j) letter, the
Taxpayers argue against § 280E’s constitutionality by relying on
one partial dissent (joined by two other panelists) in an en banc
United States Tax Court decision. The dissent opined that Congress had exceeded its Sixteenth Amendment authority in enacting § 280E. See N. Cal. Small Bus. Assistants Inc. v. Comm’r, 153
T.C. No. 4, 2019 WL 5423724, at *12 (2019) (Gustafson, J., concurring in part and dissenting in part). We are unpersuaded by
this dissent. We agree with the majority, which ruled that § 280E
falls within Congress’s authority under the Sixteenth Amendment to establish deductions. See id. at *4 (majority opinion). Further, we are bound by our decisions in Green Solution, Alpenglow,
and High Desert that the IRS is properly enforcing § 280E. See,
e.g., Robles-Garcia v. Barr, 944 F.3d 1280, 1284 (10th Cir. 2019)
(“We are bound by our prior Tenth Circuit precedent.” (citing
Lucio-Rayos v. Sessions, 875 F.3d 573, 582 (10th Cir. 2017))).

App. 19
the Controlled Substances Act) which is prohibited by
Federal law or the law of any State in which such trade
or business is conducted.” 26 U.S.C. § 280E (emphasis
added). Congress’s use of “or” extends the statute to situations in which federal law prohibits the conduct even
if state law allows it.
Further, the CSA reigns supreme. See Gonzales v.
Raich, 545 U.S. 1, 29 (2005) (“The Supremacy Clause
unambiguously provides that if there is any conflict between federal and state law, federal law shall prevail.
It is beyond peradventure that federal power over commerce is superior to that of the States to provide for
the welfare or necessities of their inhabitants. . . .” (citation and internal quotation marks omitted)). “[S]tate
legalization of marijuana cannot overcome federal
law.” Feinberg v. Comm’r, 916 F.3d 1330, 1338 n.3 (10th
Cir. 2019) (citing Hancock v. Train, 426 U.S. 167, 178
(1976)); see also Gonzales, 545 U.S. at 19 (“[A] primary
purpose of the CSA is to control the supply and demand of controlled substances in both lawful and unlawful drug markets.”). So, despite legally operating
under Colorado law, “the Taxpayers are subject to
greater federal tax liability” because of their federally
unlawful activities, and any “remedy [for this] must
come from Congressional change to § 280E or 21 U.S.C.
§ 812(c) (Schedule I) rather than from the courts.”
Feinberg, 916 F.3d at 1338 n.3.8
8

The Taxpayers filed a Rule 28(j) letter making a new statutory-interpretation argument regarding § 280E’s applicability
to state-legal marijuana sales. The Taxpayers have waived this
argument by waiting to raise it in a Rule 28(j) letter. See, e.g.,

App. 20
The Taxpayers thus fail to create a genuine issue
of material fact regarding whether the IRS has a legitimate purpose to investigate them.9 We agree with the
district court that the IRS satisfied this factor.
C. The IRS’s Summonses Seek Information Relevant to Its Legitimate, Investigatory Purpose.
The second Powell factor requires the IRS to establish that “the inquiry may be relevant to the [investigation’s] purpose.” 379 U.S. at 57. Agent Pringle
explained that the Standing Akimbo summons sought
METRC data “account[ing] for all marijuana plants
and products” and that this information “can establish
whether a marijuana business properly reported its
Flores-Molina v. Sessions, 850 F.3d 1150, 1172 n.16 (10th Cir.
2017) (stating that we will not consider an argument raised for
the first time in a Rule 28(j) letter). We decline to excuse this
waiver because the argument rests on the above-rejected premise
that § 280E may apply to the Taxpayers only if their legal sale of
marijuana under Colorado law violates federal law. Further, the
letter falls outside Rule 28(j). See Feinberg, 916 F.3d at 1337 n.2
(“A rule 28(j) letter’s purpose is ‘not to interject a long available
but previously unmentioned issue for decision.’ ” (quoting Niemi
v. Lasshofer, 728 F.3d 1252, 1262 (10th Cir. 2013))).
9
The Taxpayers have filed two Rule 28(j) letters attempting
to raise new arguments contesting the IRS’s legitimate purpose
in issuing the summonses. Both letters selectively quote and misconstrue documents to assert that the IRS’s “true purpose” is to
disrupt and dismantle the state-legal marijuana industry. Taxpayers’ Second Nov. 13, 2019 28(j) Letter at 2, ECF No. 10694735.
These arguments are waived because they were improperly
raised for the first time in Rule 28(j) letters. See, e.g., Feinberg,
916 F.3d at 1337 n.2; Flores-Molina, 850 F.3d at 1172 n.16.

App. 21
gross receipts and allowed deductions for cost of goods
sold.” App. vol. 1 at 72–73. According to Agent Pringle,
he issued the Taxpayers summonses seeking a list of
the Taxpayers’ licenses “to verify that these individuals own Standing Akimbo” and to “determine the correctness of the[ir] federal tax returns and federal tax
liabilities.” Id. at 74–75. With this explanation, Agent
Pringle’s declaration satisfies the IRS’s slight burden
to establish that the information summoned may be
relevant to its federal tax investigation into whether
the Taxpayers had improperly deducted business expenses.
On appeal, the Taxpayers respond with one contention: that the requested METRC data is irrelevant
to the IRS’s legitimate purpose because that data
tracks only marijuana plants, information relevant
only to a federal-drug-crime investigation. To support
this conclusory assertion, the Taxpayers provide a
heavily redacted document purporting to be an IRS
purchase lead sheet, which states: “METRC data does
not track purchases other than tracking the amount of
marijuana product transferred in, this report only
tracks the amounts, not the costs; therefore, there are
no verification in METRC’s to support any [cost of
goods sold].” App. vol. 2 at 150. But the Taxpayers cannot use this document to create a material issue of fact.
First, the Taxpayers have waived this argument by not
raising it until objecting to the magistrate judge’s recommendation. See ClearOne Commc’ns, Inc. v. Biamp
Sys., 653 F.3d 1163, 1185 (10th Cir. 2011) (stating that
“[i]ssues raised for the first time in objections to the

App. 22
magistrate judge’s recommendation are deemed
waived” (alteration in original) (quoting Marshall v.
Chater, 75 F.3d 1421, 1426–27 (10th Cir. 1996)) (internal quotation marks omitted)). Though the Taxpayers
had earlier contended that the Standing Akimbo summons would not provide financial data, but instead
only marijuana-plant information, they did not object
on relevancy grounds until their objections to the magistrate judge’s recommendation.
Second, even if we excused that waiver, the redacted document would be inadmissible hearsay. The
Taxpayers rely on it for the truth of the matter asserted—that METRC does not provide cost-of-goodssold information—without providing the foundation
necessary to show the document meets an exception or
exclusion to the hearsay rule. Evidence must be admissible at trial before it can create a genuine issue of material fact for summary judgment purposes. See, e.g.,
Argo v. Blue Cross & Blue Shield of Kan., 452 F.3d
1193, 1199 (10th Cir. 2006) (“To determine whether
genuine issues of material fact make a jury trial necessary, a court necessarily may consider only the evidence that would be available to the jury.” (citation
omitted)); Gross v. Burggraf Constr. Co., 53 F.3d 1531,
1541 (10th Cir. 1995) (“It is well settled in this circuit
that we can consider only admissible evidence in reviewing an order granting summary judgment.” (citations omitted)).

App. 23
And even if we could consider this evidence,10 it
would not create a genuine issue of material fact. The
IRS has authority to summon information “of even potential relevance to an ongoing investigation.” United
States v. Arthur Young & Co., 465 U.S. 805, 814 (1984).
Even assuming the METRC data does not provide costof-goods-sold information, the data may still be relevant to the IRS’s investigation in other ways. For example, it could provide inventory figures and help
Agent Pringle “verify the accuracy of Standing
Akimbo’s internal books and records.” App. vol. 1 at 73.
Finally, the Taxpayers concede that METRC information is relevant in determining whether they trafficked in marijuana—a relevant and proper inquiry
the IRS may make in determining § 280E’s application. See High Desert, 917 F.3d at 1187; Alpenglow, 894
F.3d at 1197. In fact, in High Desert we concluded that
the summonses met Powell’s second factor, in part because the information sought “would be used to determine whether [the taxpayer] was growing or selling
marijuana.” High Desert, 917 F.3d at 1191. Accordingly,
the Taxpayers fail to create a genuine dispute of material fact here. We agree with the district court that the
IRS satisfied the second Powell factor.

10

Notably, another attachment to the Taxpayers’ response to
the IRS’s motion to dismiss contradicts their argument that
METRC does not track financial information. A document purporting to be an Enforcement Division guide to summonses for
METRC data states that METRC tracks gross sales.

App. 24
D. The IRS Does Not Already Possess the
Information Summoned.
We next examine Powell’s third factor: whether
“the information sought is . . . already within the Commissioner’s possession.” Powell, 379 U.S. at 57–58.
Agent Pringle declared that the IRS did not already
possess the information sought in the summonses. The
summonses are also specific in what they request—licenses held by the Taxpayers and specific METRC reports for tax years 2014 and 2015. Agent Pringle
explained that the Taxpayers had only partially responded to his Document Requests and that their production did not include any information reported to the
Enforcement Division, including METRC data. This
satisfies the IRS’s slight burden.
The Taxpayers did not contest that this factor is
satisfied until they objected to the magistrate judge’s
recommendation. So this argument is waived. See
ClearOne Commc’ns, 653 F.3d at 1185. Even if we excused this waiver, the Taxpayers would still not prevail. They contend that this factor is not satisfied
because “there is no legitimate basis to seek the preparation of METRC reports.” App. vol. 2 at 95 (Objections to Recommendation). This contention rests on
their assertion that they have already produced “voluminous” records for Agent Pringle’s inspection, giving
him enough information to complete his audit. Id. But
this argument does not rebut the IRS’s showing that it
does not possess the information summoned. On appeal, the Taxpayers concede that they did not provide
the requested METRC data. And the record offers no

App. 25
support that they have provided a list of the licenses
they held in 2014 and 2015. The Taxpayers bear the
burden of providing facts to contest the IRS’s prima facie showing under Powell. See, e.g., Balanced Fin.
Mgmt., 769 F.2d at 1444. They did not meet this burden. The Taxpayers failed to demonstrate the existence
of a genuine factual dispute whether the IRS already
possessed the information summoned; we agree with
the district court that the IRS satisfied this factor.
E. The IRS Followed the Required Administrative Steps.
Finally, we turn to Powell’s fourth factor: whether
“the administrative steps required by the Code have
been followed.” Powell, 379 U.S. at 58. Agent Pringle’s
declaration again satisfies the IRS’s slight burden
here. Agent Pringle stated that he “complied with the
administrative steps that the Internal Revenue Code
requires” in issuing the summonses. App. vol. 1 at 74–
75. The Taxpayers do not contest on appeal that this
factor has been met. We agree with the district court
that the IRS satisfied this final Powell factor.
*

*

*

Accordingly, we agree with the district court’s determination that the IRS met its prima facie showing
under Powell and that the Taxpayers failed to carry
their “heavy burden” to factually oppose this showing.
Balanced Fin. Mgmt., 769 F.2d at 1449. We next turn
to whether the Taxpayers have met their burden to

App. 26
make an affirmative defense against enforcement of
the summonses.
IV. The Taxpayers Fail to Establish a Lack of
Good Faith or an Abuse of Process.
Besides contesting the IRS’s prima facie Powell
case for enforcement, the Taxpayers argue that the IRS
did not act in good faith in issuing the summonses and
that enforcing the summonses would abuse the court’s
process. In this vein, the Taxpayers raise five arguments against enforcement: (1) the IRS’s ability to
share the collected information with law enforcement
constitutes bad faith, (2) enforcing the summonses
would improperly force the Enforcement Division to
create documents, (3) the summonses seek information
that the Fourth Amendment protects, (4) the summonses are overbroad, and (5) enforcing the summonses would compel a violation of Colorado law. We
address each argument in turn and conclude that all
five arguments fail. The Taxpayers have not met their
burden to factually support these arguments. The district court thus correctly ruled that the Taxpayers are
not entitled to an evidentiary hearing or discovery and
enforced the summonses.
A. The IRS’s Ability to Share the Collected
Information with Law Enforcement Does
Not Constitute Bad Faith.
The Taxpayers first contend, as a practical matter,
that the IRS cannot split its civil investigatory

App. 27
authority from any possible associated criminal investigation into federal drug crimes. From this, the Taxpayers argue that the IRS’s investigation is in bad
faith. They assert that by refusing to grant them immunity from prosecution for federal drug crimes, the
IRS has turned its investigation “ ‘quasi-criminal’
which triggers heightened constitutional rights for the
taxpayer[s].” Appellants’ Opening Br. at 25 (citing
Boyd v. United States, 116 U.S. 616 (1886)). They also
argue that the IRS cannot rely on 26 U.S.C. § 7602 to
obtain the information summoned, because the information will be used, in part, to evaluate the presence
of any federal drug crimes. To get there, the Taxpayers
rely on the Marchetti v. United States, 390 U.S. 39
(1968), line of cases.11
Again, however, the Taxpayers did not argue this
point before the magistrate judge, instead first raising
it to the district court in their objections to the magistrate judge’s recommendation. By not raising this
point with the magistrate judge, they have waived it.
ClearOne Commc’ns, 653 F.3d at 1185.
Forgiving this waiver would not help the Taxpayers. They proffer nothing to support their conclusory
assertion that the IRS’s refusal to grant immunity
turned its civil tax investigation “quasi-criminal.” They
rely on Boyd, but Boyd dealt with a forfeiture
11

Based on our review of the Taxpayers’ arguments in the
district court, the cases to which they refer besides Marchetti are
Leary v. United States, 395 U.S. 6 (1969), Grosso v. United States,
390 U.S. 62 (1968), and Haynes v. United States, 390 U.S. 85
(1968).

App. 28
prescribed by a criminal statute as a penalty for committing fraud. See 116 U.S. at 617, 634, 6 S.Ct. 524.
There, the criminal statute authorized the government
to compel offenders to produce information that would
be used against them in a later criminal or forfeiture
proceeding. See id. at 622–23. The Supreme Court determined that proceedings “for penalties and forfeitures, incurred by the commission of offenses against
the law, are of [the] quasi criminal nature” necessitating Fourth and Fifth Amendment protections. Id. at
634. Boyd is thus inapposite to a strictly civil investigation into whether the Taxpayers violated the tax
code. The tax code, and not a criminal statute, prescribes the IRS’s enforcement of § 280E. Here, the IRS
sought the information to determine the Taxpayers’
tax liabilities.
The Taxpayers also proffer no evidence that the
IRS’s investigation “is part of a larger criminal investigation,” apart from alleging that the IRS has refused
to grant them immunity from any criminal prosecution.12 Appellants’ Opening Br. at 25. But this does not
12

In a Rule 28(j) letter, the Taxpayers assert that this refusal
to grant immunity, combined with the IRS’s reservation of its
right to prosecute, leads to a reasonable inference “that the Government intends to prosecute based upon the information provided in the audit.” Taxpayers’ Nov. 13, 2019 28(j) Letter at 2,
ECF No. 10694621. The record does not show that the IRS has
reserved rights to prosecute. And even if this were true and we
drew the inference that the IRS intends to eventually refer this
case to the DOJ for prosecution, this inference would not void the
IRS’s legitimate, tax-investigatory purpose in issuing the summonses. As the Supreme Court reasserted in LaSalle, there is “no
reason to force the Service to choose either to forgo the use of

App. 29
refute Agent Pringle’s statement that the IRS has not
referred the case to the DOJ. The Taxpayers have offered no evidence that the government is criminally investigating them, let alone that the IRS is involved.
See LaSalle, 437 U.S. at 311–12 (“The preceding discussion suggests why the primary limitation on the
use of a summons occurs upon the recommendation of
criminal prosecution to the [DOJ]. Only at that point
do the criminal and civil aspects of a tax fraud case
begin to diverge.” (citations omitted)). In LaSalle, the
Supreme Court reiterated its previous conclusion “that
Congress had authorized the use of summonses in investigating potentially criminal conduct.” Id. at 307 (citation omitted). So long as the IRS has not referred the
case to the DOJ and has issued the summonses in
good faith as defined by the Powell factors as here, the
summonses are enforceable notwithstanding the

congressionally authorized summonses or to abandon the option
of recommending criminal prosecutions to the [DOJ].” 437 U.S. at
307. “Congress has not categorized tax fraud investigations into
civil and criminal components[,]” so a summons may be issued for
a proper purpose when there has been no “recommendation of
criminal prosecution to the [DOJ]” as here. Id. at 311. The Taxpayers also assert that the summonses have no proper purpose
absent the IRS explaining why the materials the Taxpayers have
produced are insufficient to complete the audit. This argument
fails because nothing requires such a showing from the IRS. It is
enough that Agent Pringle attested that the Taxpayers “ha[d] not
provided sufficient information to substantiate the figures shown
on [their] tax returns.” App. vol. 1 at 72.

App. 30
possibility of later referral to the DOJ.13 See id. at 307,
313–14.
Marchetti does not change this result or remove
the IRS’s authority to issue summonses under § 7602
when investigating potential § 280E violations. The
Taxpayers rely on Marchetti to assert that if the IRS is
using the information summoned to investigate federal drug crimes, the summonses would be “outside of
[the] normal regulatory environment.” Appellants’
Opening Br. at 25. But Marchetti does not stand for
that proposition, and the IRS’s investigating drug activity within § 280E is a proper purpose. See Alpenglow, 894 F.3d at 1197; Green Sol. Retail, 855 F.3d at
1121. Further, in Alpenglow we distinguished Marchetti and its related cases from the IRS’s investigations under § 280E. See Alpenglow, 894 F.3d at 1197.
That analysis holds true here. The Marchetti line of
cases is inapposite: those cases involve the invocation
of a Fifth Amendment privilege to overcome IRS regulations requiring a taxpayer to disclose information
carrying a real risk of self-incrimination. See id.; see
also Feinberg, 916 F.3d at 1336 (“The petitioners in
13

Notably, the IRS is limited in when it can disclose gathered
information for nontax criminal-investigatory purposes. For example, the DOJ must seek a court order to obtain such information, and the IRS cannot disclose the information unless it is
unavailable from other sources. See 26 U.S.C. § 6103(i)(1)(B). The
Taxpayers asserted for the first time at oral argument that the
IRS has authority to disclose information sua sponte in its discretion, relying on § 6103(a) and United States v. One Coin-Operated
Gaming Device, 648 F.2d 1297 (10th Cir. 1981), but these sources
do not support that assertion and § 6103(i) expressly precludes it.

App. 31
those cases, however, were prosecuted for failing to
comply with a statute compelling them to provide selfincriminating information, and the Court determined
the Fifth Amendment privilege provided a complete
defense to that failure.” (citations omitted)). The Taxpayers have not raised a Fifth Amendment challenge
on appeal, and § 280E does not require disclosure of
incriminating information. Thus, the Taxpayers have
failed to factually establish that the IRS issued the
summonses in bad faith. We agree with the district
court that this argument fails.
B. The Standing Akimbo Summons Does
Not Improperly Force the Enforcement
Division to Create Documents.
The Taxpayers next argue that enforcing the
Standing Akimbo summons would be an abuse of process because the summons improperly compels the Enforcement Division to create documents.14 They point
to Samantha Murphy’s declaration that Standing
Akimbo does not produce the METRC reports summoned and that “[t]o the best of [her] knowledge, these
reports are not reports that are ordinarily created by
the Marijuana Enforcement Division.” App. vol. 1 at 43.
They also claim that they have raised a genuine issue
of material fact based on the IRS’s failure to provide
evidence that the reports existed at the time they were
summoned.
14

The government has not contested the Taxpayers’ ability
to raise this argument under the statutory scheme.

App. 32
This argument fails. The Taxpayers bear the sole
burden of factually supporting their affirmative defenses. See, e.g., Balanced Fin. Mgmt., 769 F.2d at 1444
(“[I]f at this stage the taxpayer cannot . . . factually
support a proper affirmative defense, the district court
should dispose of the proceeding on the papers before
it and without an evidentiary hearing.” (alteration in
original) (quoting Garden State Nat’l Bank, 607 F.2d at
71) (internal quotation marks omitted)). To proceed
with this affirmative defense, the Taxpayers must provide evidence that the summons forces the Enforcement Division to create documents. They have not
provided any such evidence. Samantha Murphy’s conclusion that she believes the Enforcement Division
does not routinely create the reports summoned is insufficient and does not support the defense.15 Argo, 452
F.3d at 1200 (“Accordingly, at the summary judgment
stage, ‘statements of mere belief ’ in an affidavit must
be disregarded.” (quoting Tavery v. United States, 32
F.3d 1423, 1426 n.4 (10th Cir. 1994))).
On its face, the Standing Akimbo summons does
not require the creation of new documents. The summons requests that the Enforcement Division provide
a “[c]opy” of the reports summoned. App. vol. 1 at 18. A
copy of something generally assumes that the something already exists. See Copy, Merriam-Webster, https://
www.merriam-webster.com/dictionary/copy (last visited
Jan. 31, 2020). With no original report, no copy is
15

Further, the Taxpayers provide other hearsay evidence
that contradicts Samantha Murphy’s statement. See supra note
10.

App. 33
possible. If the Enforcement Division does not have the
requested reports, then by the IRS’s guidelines the Enforcement Division need not create and produce them.
Nothing requires the Enforcement Division to create
the records, and the summons does not purport to say
otherwise. See United States v. Davey, 543 F.2d 996,
1000 (2d Cir. 1976) (“[Section] 7602 does not require
preparation or production of records not yet in existence.” (citation omitted)).
Further, despite the Taxpayers’ argument, the IRS
need not identify what records exist before enforcing
the summons, because nothing requires the IRS to do
so. E.g., High Desert, 917 F.3d at 1181–82 (noting that
the IRS must show that it did not refer the case to the
DOJ and that it meets the Powell factors to obtain enforcement of a summons). If the Taxpayers are arguing
that the district court extended the summons to reach
the entire METRC database, this argument misconstrues the district court’s language and also fails. We
thus agree with the district court that the Taxpayers
have failed to meet their burden to establish this affirmative defense.
C. The IRS Does Not Need Probable Cause
to Obtain the METRC Data Summoned.
The Taxpayers next argue that they have a reasonable expectation of privacy in the METRC data because Colorado law criminalizes its disclosure. They
argue that the district court misapplied controlling
Fourth Amendment law in applying the third-party

App. 34
doctrine without considering Carpenter v. United
States, 138 S. Ct. 2206 (2018). The Taxpayers assert
that Carpenter supports their position that they have
a reasonable expectation of privacy in the METRC
data, which would require that the IRS obtain a search
warrant supported by probable cause.
This argument also fails. The Taxpayers have no
reasonable expectation of privacy in the METRC data
collected on their business. The Fourth Amendment
protects “[t]he right of the people to be secure in their
persons, houses, papers, and effects, against unreasonable searches and seizures.” U.S. Const. amend. IV. It
applies only when “the person invoking its protection
can claim a ‘justifiable,’ a ‘reasonable,’ or a ‘legitimate
expectation of privacy’ that has been invaded by government action.” Smith v. Maryland, 442 U.S. 735, 740
(1979) (citations omitted). But “a person has no legitimate expectation of privacy in information he voluntarily turns over to third parties.” Id. at 743–44 (citing
United States v. Miller, 425 U.S. 435, 442–44 (1976);
Couch v. United States, 409 U.S. 322, 335–36 (1973);
United States v. White, 401 U.S. 745, 752 (1971) (plurality opinion); Hoffa v. United States, 385 U.S. 293,
302 (1966); Lopez v. United States, 373 U.S. 427 (1963)).
This principle, known as the third-party doctrine, applies “even if the information is revealed on the assumption that it will be used only for a limited
purpose.” Miller, 425 U.S. at 443 (citations omitted).
The Supreme Court recently reaffirmed this doctrine
in Carpenter. See 138 S. Ct. at 2220 (“We do not disturb
the application of Smith and Miller. . . .”).

App. 35
Contrary to the Taxpayers’ assertions, Carpenter’s
holding precluding the third-party doctrine’s application does not apply to them. Carpenter examined a narrow issue: whether the third-party doctrine should
apply to the collection of cell-site-location information
(CSLI). Id. The METRC records differ markedly from
CSLI. METRC tracks the movement of plants, and
CSLI tracks people. Further, the Taxpayers voluntarily
provided the information summoned to the Enforcement Division so they could legally conduct their business; this differs from CSLI, which collects information
“without any affirmative act on the part of the user beyond powering up.” Id. Carpenter’s analysis in precluding the third-party doctrine’s application to CSLI is
thus inapplicable here.
The third-party doctrine applies to the METRC
data summoned here. The Taxpayers chose to operate
a marijuana business under Colorado law and, thus,
agreed to provide certain information to the Enforcement Division. As required by law, the METRC database stores this information, constructing reports that
the Enforcement Division may access as needed. The
METRC reports are the Enforcement Division’s property—the Taxpayers have no ownership, possession, or
propriety interest in them. See Miller, 425 U.S. at 440–
43; cf. United States v. Leary, 846 F.2d 592, 598 (10th
Cir. 1988) (finding a reasonable expectation of privacy
when defendants “retained control over the premises
and records”). So the Taxpayers have no expectation of
privacy in these reports. See Miller, 425 U.S. at 440–
43. Because the Taxpayers have no Fourth Amendment

App. 36
right at stake, the IRS need not obtain a warrant supported by probable cause to get the records. See id. at
444.
Finally, though we agree that Colorado law deems
the METRC records confidential, we do not agree that
this confidentiality provides the Taxpayers with a
Fourth Amendment interest in them. The statute they
rely on to establish that the METRC information is
confidential has been repealed and its amended version has been relocated. See Colo. Rev. Stat. Ann. § 1243.3-202(d) (West 2018). The now-applicable statute
provides that the Enforcement Division “shall maintain the confidentiality of . . . information obtained
from a medical marijuana or retail marijuana licensee
. . . that [is] exempt from public inspection pursuant to
state law.” Colo. Rev. Stat. Ann. § 44-10-204(1)(a) (West
2020). But such information “may be used . . . for investigation or enforcement of any international, federal, state, or local securities law or regulations[.]” Id.
And “[n]othing in this article 10 limits a law enforcement agency’s ability to investigate unlawful activity
in relation to a medical marijuana business or retail
marijuana business.” Id. § 44-10-202(3).
We thus fail to see how this statute precludes the
sharing of such information with the IRS—an agency
tasked with enforcing federal-tax laws with its own
duty to keep information confidential. See 26 U.S.C.
§ 6103(a) (providing that an agent must maintain as
confidential any return information obtained “in connection with his service”). And even if the statute
somehow provides the Taxpayers a right of privacy

App. 37
here, the statute would be preempted by the Supremacy Clause. Under the Supremacy Clause, state law is
preempted when it “stands as an obstacle to the accomplishment and execution of the full purposes and objectives of Congress.” Hines v. Davidowitz, 312 U.S. 52,
67 (1941). The Taxpayers’ reading of the statute would
substantially impede the IRS’s ability to summon
METRC records under § 7602.16
The IRS has met the Powell factors establishing
the Fourth Amendment reasonableness of the Standing Akimbo summons. The Taxpayers have failed to rebut this showing, so the IRS does not need probable
cause. See, e.g., Powell, 379 U.S. at 51 (holding that the
government needs to show probable cause only when
the taxpayer raises a substantial question that judicial
enforcement constitutes an abuse of process); United
States v. Reis, 765 F.2d 1094, 1096 (11th Cir. 1985)
(“The enforcement of an IRS summons does not violate
the fourth amendment as long as the IRS has complied
with the Powell requirements.” (citations omitted));
United States v. Shlom, 420 F.2d 263, 266 (2d Cir. 1969)
(stating that a valid summons does not constitute a
search and seizure). We thus agree with the district
court that the Taxpayers failed to establish this defense.

16

For this reason, we need not conduct a full preemption
analysis. See Presley v. United States, 895 F.3d 1284, 1292 n.6
(11th Cir. 2018).

App. 38
D. The Summonses Are Not Overbroad.
The Taxpayers next assert that the IRS did not issue the summonses in good faith because they are
overbroad. They point out that the Taxpayers summonses request a list of all licenses held by the Taxpayers for the 2014 and 2015 tax years.17 They argue
that because this “go[es] way beyond asking about
ownership in Standing Akimbo,” the summonses are
overbroad. Appellants’ Opening Br. at 34.
This argument also fails. As discussed, the Taxpayers bear a heavy burden to provide specific facts
supporting their defense. See Balanced Fin. Mgmt.,
769 F.2d at 1444. They provide no authority for their
contention that the summonses are overbroad for failure to explain the IRS’s need for information about the
Taxpayers’ licenses apart from Standing Akimbo. Powell does not require that the IRS explain why it seeks
information beyond showing its potential relevance to
a legitimate purpose. The IRS has shown the information summoned is relevant, and the Taxpayers
failed to rebut this showing. See supra Section III.C.
Further, the summonses specifically describe the
information they seek and limit the request to the tax
years in question. The summonses are thus proportionate to the ends sought and are not a “fishing expedition.” United States v. Coopers & Lybrand, 550 F.2d
615, 621 (10th Cir. 1977) (quoting United States v.
Theodore, 479 F.2d 749, 754 (4th Cir. 1973)) (internal
17

The Taxpayers do not appear to contest the reasonableness
of the IRS’s seeking a list of licenses held by Standing Akimbo.

App. 39
quotation marks omitted). Under these facts, the summonses cannot be overbroad. See United States v.
Berney, 713 F.2d 568, 572 (10th Cir. 1983). We agree
with the district court that the Taxpayers failed to establish this affirmative defense.18
E. Enforcing the Standing Akimbo Summons Would Not Compel a Violation of
Colorado Law.
In the Taxpayers’ last attempt to assert a defense
to enforcement, they argue that enforcing the Standing
Akimbo summons would require the individual complying with it to violate Colorado law.19 They point to
18

The magistrate judge appears to have misunderstood the
Taxpayers’ argument and addressed only the Standing Akimbo
summons. We need not remand, however, because we may affirm
on any basis adequately supported by the record. E.g., High Desert, 917 F.3d at 1181.
19
The government argues that the Taxpayers lack standing
to bring this argument. In an unpublished case, we recognized
that “plaintiffs lack standing ‘to assert as defenses enforcement
issues which only affect the interests of the third-party record
keeper, such as the defense that the third-party record keeper
was not properly served with the summons.’ ” Gass v. U.S. Dep’t
of Treasury, 216 F.3d 1087, 2000 WL 743671, at *5 (10th Cir.
2000) (unpublished table opinion) (quoting Wright v. United
States, 964 F. Supp. 336, 338 (M.D. Fla. 1997); and citing King v.
United States, 684 F. Supp. 1038, 1041 (D. Neb. 1987)). Arguing
that a summons requires an individual to commit a crime and risk
imprisonment is very different from arguing improper service or
that a summons is unduly burdensome. Cf. King, 684 F. Supp. at
1041. Further, it appears that, if the METRC data is confidential
as the Taxpayers argue and if the summons were instead directed
at them, the Taxpayers’ turning over the data summoned would
also constitute a crime. See Colo. Rev. Stat. Ann. § 44-10-201(4)

App. 40
two Colorado statutes: one making the METRC data
confidential and one making disclosure of the data a
misdemeanor. They argue that the Supremacy Clause
does not preempt these statutes and that the statutes
protect their Fifth Amendment rights against forced
disclosure of federal drug crimes.
The Colorado legislature has repealed the statutes
the Taxpayers rely upon in their briefs.20 The current
statutes state that the Enforcement Division
shall maintain the confidentiality of:
(a) Reports or other information obtained
from a medical marijuana or retail marijuana
licensee . . . containing any individualized
data, information, or records related to the applicant or licensee or its operation, including
sales information, leases, business organization records, financial records, tax returns,
credit reports, cultivation information, testing results, and security information and
plans, or revealing any customer information, or any other records that are exempt
from public inspection pursuant to state law.
Such reports or other information may be
used only for a purpose authorized by this
article 10, for investigation or enforcement of
(West 2020) (“Any person who discloses confidential records or information in violation of the provisions of this article 10 commits
a class 1 misdemeanor. . . .” (emphasis added)). So this issue affects more than the Enforcement Division’s interests, and we conclude that the Taxpayers have standing to bring this argument.
20
The legislature repealed the statutes effective October 1,
2018.

App. 41
any international, federal, state, or local securities law or regulations, or for any other state
or local law enforcement purpose.
Colo. Rev. Stat. Ann. § 44-10-204(1)(a). Certain disclosures constitute a crime: “Any person who discloses
confidential records or information in violation of the
provisions of this article 10 commits a class 1 misdemeanor and shall be punished as provided in section
18-1.3-501.” Id. § 44-10-201(4). Article 10 also provides:
“Nothing in this article 10 limits a law enforcement
agency’s ability to investigate unlawful activity in relation to a medical marijuana business or retail marijuana business.” Id. § 44-10-202(3).
Section 204(1)(a) allows disclosure of the confidential information for “a purpose authorized by this article 10,” such as section 202(3)’s allowing a lawenforcement agency’s investigation into a medical marijuana dispensary’s unlawful activity. Here, the IRS’s
investigation into whether the Taxpayers’ unlawfully
claimed business deductions falls within this authorized purpose. So an Enforcement Division employee’s
compliance with the summons seeking the confidential
METRC information would not violate “the provisions
of this article 10” and, thus, would not constitute a
crime. Id. § 44-10-201(4).
The Taxpayers’ interpretation of the statutory
scheme is unpersuasive.21 It ignores section 202(3)’s
21

Under the Taxpayers’ interpretation, the Enforcement Division officials would violate Colorado law by complying with the
IRS’s summons. This would impede the IRS’s ability to summon

App. 42
plain language disallowing limitations on a lawenforcement agency’s investigation. Further, the Taxpayers provide no evidence that Colorado has prosecuted any Enforcement Division employees for
complying with a summons requesting METRC reports or that the Enforcement Division has objected
to any such summons because it perceives that its compliance constitutes a crime.22 Finally, the Taxpayers’
reliance on the Fifth Amendment is misplaced because
the Enforcement Division—a third party—holds the
information, so the Taxpayers have no Fifth Amendment interests in it. See First Nat’l Bank, Englewood
v. United States, 701 F.2d 115, 117 (10th Cir. 1983)
(“There can be no violation of one’s Fifth Amendment
right not to testify against oneself where the records
are in the hands of a third party; hence, one cannot
information relevant to completing its required § 6201 duties. The
Supremacy Clause enables federal law to preempt state law when
it “stands as an obstacle to the accomplishment and execution of
the full purposes and objectives of Congress.” Hines, 312 U.S. at
67. So, even if the Taxpayers’ interpretation were correct, the Colorado statutes would have to yield. See Presley, 895 F.3d at 1292
n.6.
22
In their reply brief, the Taxpayers attach a motion filed in
the United States Tax Court showing Arizona’s views on its own
“substantively identical marijuana privacy laws.” Appellants’ Reply Br. at 12. But the laws are not “substantively identical.” Compare Ariz. Rev. Stat. Ann. § 36-2810(A) (West 2019) (preventing
disclosure “except as necessary for authorized employees of the
department to perform official duties”), with Colo. Rev. Stat. Ann.
§ 44-10-204. We do not consider this motion, which provides no
insight into how Colorado views its laws, or the government’s
Rule 28(j) letter response. It is telling that, unlike Arizona, Colorado apparently has not contested enforcement of an IRS summons requesting METRC information.

App. 43
complain on this ground about a subpoena directed to
third parties to produce records.”). The Taxpayers have
failed to carry their burden on this attempt to prevent
enforcement of the Standing Akimbo summons. We
agree with the district court that enforcing this summons does not compel a violation of state law.
*

*

*

The Taxpayers did not meet their burden to show
that the IRS acted in bad faith in issuing the summonses or that it is abusing the court’s process in asking for their enforcement. The Taxpayers’ appended
declarations neither create a genuine issue of material
fact nor support their defenses, so the district court correctly enforced the summonses without discovery or a
hearing. See Balanced Fin. Mgmt., 769 F.2d at 1444 &
n.2. With no genuine issue of material fact, the district
court properly entered judgment in the IRS’s favor, and
we affirm.23

23

The Taxpayers assert in a Rule 28(j) letter that without
service of a summons under Federal Rule of Civil Procedure 4 to
Colorado, “no order against Colorado is valid.” Taxpayers’ Nov. 4,
2019 28(j) Letter at 1, ECF No. 10692528. This argument is
waived because the Taxpayers waited to improperly raise it in a
Rule 28(j) letter. See, e.g., Feinberg, 916 F.3d at 1337 n.2; FloresMolina, 850 F.3d at 1172 n.16. This argument is also meritless.
The Taxpayers served the Enforcement Division when they filed
the petition, and the Enforcement Division is “bound by the decision in [this] proceeding” despite its non-intervention. 26 U.S.C.
§ 7609(b)(2)(C).

App. 44
CONCLUSION
We conclude that the Taxpayers have failed to
overcome the IRS’s showing of good faith under Powell
and have failed to establish that enforcing the summonses would constitute an abuse of process. The Taxpayers’ failures mean that they are not entitled to an
evidentiary hearing or to limited discovery. We thus
affirm the district court’s denial of the petition to
quash, its judgment in favor of the government, and its
enforcement of the summonses.

App. 45
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge William J. Martínez
Civil Action No. 17-mc-00169-WJM-KLM
STANDING AKIMBO, LLC, a Colorado
Limited Liability Company,
PETER HERMES, an individual,
KEVIN DESILET, an individual,
SAMANTHA MURPHY, an individual, and
JOHN MURPHY, an individual,
Petitioners,
v.
UNITED STATES OF AMERICA, through its agency
the Internal Revenue Service,
Respondent.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

ORDER ADOPTING AUGUST 6, 2018
RECOMMENDATION DENYING PETITIONERS’
PETITION TO QUASH SUMMONS AND GRANTING RESPONDENT’S MOTION TO DISMISS
PETITION AND ENFORCE SUMMONSES
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed Dec. 10, 2018)
This matter is before the Court on United States
Magistrate Judge Kristen L. Mix’s Recommendation
dated August 6, 2018 (the “Recommendation”) (ECF
No. 23), which recommended denying the Petition to
Quash Summons (the “Petition”) (ECF No. 1) filed by
Petitioners and granting the Motion to Dismiss

App. 46
Petition and Enforce Summonses (the “Motion to Dismiss”) (ECF No. 12) filed by Respondent. The Recommendation is incorporated herein by reference. See 28
U.S.C. § 636(b)(1)(B); Fed. R. Civ. P. 72(b). Petitioners
filed a timely Objection to the Recommendation (the
“Objection”) (ECF No. 24) and Defendant filed a Response to the Objection (the “Response”) (ECF No. 25).
The Court has reviewed the Petition, the Motion
to Dismiss, the Recommendation, the Objection, the
Response, the entire case file, and the applicable law
and is sufficiently apprised in the matter. For the reasons set forth in Green Solution Retail, Inc. v. United
States, 855 F.3d 1111 (10th Cir. 2017), cert. denied, 138
S. Ct. 1281 (2018); Alpenglow Botanicals, LLC v.
United States, 894 F.3d 1187 (10th Cir. 2018); Rifle
Remedies, LLC v. United States, 2017 WL 6021421 (D.
Colo. Oct. 26, 2017); Green Solution Retail, Inc. v.
United States, 2018 WL 1305449 (D. Colo. Feb. 12,
2018); and Futurevision, LTD v. United States, 2017
WL 2799931 (D. Colo. May 25, 2017), Petitioners’ Objection is overruled, the Recommendation is adopted in
its entirety, Petitioners’ Petition is denied, and Respondent’s Motion to Dismiss is granted.
In accordance with the foregoing, the Court ORDERS as follows:
1.

The Recommendation (ECF No. 23) is ADOPTED
in its entirety;

2.

Petitioners’ Objection (ECF No. 24) is OVERRULED;

App. 47
3.

Petitioners’ Petition to Quash Summons, including
the request for an evidentiary hearing (ECF No.
1), is DENIED; and

4.

Respondent’s Motion to Dismiss Petition and Enforce Summonses (ECF No. 12) is GRANTED. The
summonses issued to the Colorado Department of
Revenue’s Marijuana Enforcement Division are
ENFORCED pursuant to 26 U.S.C. § 7604. As the
prevailing party, Respondent is awarded costs pursuant to Fed. R. Civ. P. 54(d)(1) and D.C.COLO.
LCiv.R 54.1.

Dated this 10th day of December, 2018.
BY THE COURT:
/s/ William J. Martinez
William J. Martinez
United States District Judge

App. 48
IN THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLORADO
Civil Action No. 17-mc-00169-WJM-KLM
STANDING AKIMBO, LLC, a Colorado
Limited Liability Company,
PETER HERMES, an individual,
KEVIN DESILET, an individual,
SAMANTHA MURPHY, an individual, and
JOHN MURPHY, an individual,
Petitioners,
v.
UNITED STATES OF AMERICA, through its agency
the Internal Revenue Service,
Respondent.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

RECOMMENDATION OF UNITED STATES
MAGISTRATE JUDGE
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed Aug. 6, 2018)
ENTERED BY MAGISTRATE JUDGE KRISTEN
L. MIX
This matter is before the Court on Petitioners’ Petition to Quash Summons [#1]1 (the “Petition”) and
on Respondent’s Motion to Dismiss Petition and
1

“[#1]” is an example of the convention the Court uses to
identify the docket number assigned to a specific paper by the
Court’s case management and electronic case filing system
(CM/ECF). This convention is used throughout this Recommendation.

App. 49
Enforce Summonses [#12] (the “Motion”) (collectively, the “Motions”). Petitioners filed a Response [#18]
to the Motion [#12], and Respondent filed a Reply
[#22]. The Motions have been referred to the undersigned for a recommendation pursuant to 28 U.S.C.
§ 636(b)(1)(A) and D.C.COLO.LCivR 72.1(c)(3). See
[#5]. The Court has reviewed the Motions, the Response, the Reply, the entire case file, and the applicable law and is sufficiently advised in the premises. For
the reasons set forth below, the Court respectfully
RECOMMENDS that the Petition [#1] be DENIED,
and that the Motion [#12] be GRANTED.
I.

Summary of the Case2

Petitioner Standing Akimbo, LLC (“Standing
Akimbo”) is a medical marijuana dispensary located in
Denver, Colorado. See Decl. of Revenue Agent Tyler
Pringle (“Pringle”) [#12-1] ¶ 5. Petitioners Peter Hermes (“Hermes”), Kevin Desilet (“Desilet”), Samantha
2

United States v. Powell, 376 U.S. 48 (1964), governs proceedings such as these and an affidavit, if present, is critical to
the required legal analysis. See Villareal v. United States, 524 F.
App’x 419, 422 (10th Cir. 2013); see also Rifle Remedies, LLC v.
United States, No. 17-mc-00062, 2017 WL 6021421, at *1 n.1 (D.
Colo. Oct. 26, 2017); see also Gangi v. United States, No. 10-1138EFM, 2011 WL 765883 at *2 (D. Kan. Feb. 25, 2011) (stating that
whether the respondent moves to dismiss petitioner’s complaint
or moves to enforce the summons, “the pertinent inquiry . . . remains the same in that the Court must consider the four factors
under Powell and whether the petitioner has established a valid
defense to the summons”). Accordingly, the Court considers Respondent’s Affidavit [#12-1] without converting the Motion to a
motion for summary judgment.

App. 50
Murphy (“S. Murphy”), and John Murphy (“J. Murphy”) (collectively “individual Petitioners”) are individuals believed to be the owners of Standing Akimbo,
although none admit ownership in their Petition. See
Motion [#12] ¶ 6; see also Petition [#1] at 3-4. The Internal Revenue Service (“IRS”) opened an audit investigation of Standing Akimbo in May 2017 regarding its
tax liabilities for the 2014 tax year. See Petition [#1]
at 3. Agent Pringle states that the IRS subsequently
expanded the audit to the 2015 tax year. Decl. of Revenue Agent Pringle [#12-1] ¶ 8. In relation to this audit,
the IRS opened audits of the individual Petitioners;
Agent Pringle states that the individual audits are
necessary because Standing Akimbo is listed as a passthrough entity for tax purposes, and its ongoing audit
may affect its owners’ income taxes. Id. ¶ 9.
At issue here is the Administrative Summons (the
“Summons”) issued to Colorado’s Marijuana Enforcement Division (“MED”) by Respondent. Id. ¶ 12-14.
MED collects data relating to the marijuana industry
in Colorado and compiles that data into a database
called METRC. Id. The Summons to MED demands
that MED produce the following for examination:
(1) complete listing of all licenses held for
the period of January 1, 2014 - December 31,
2015 for Standing Akimbo LLC; (2) copy of
METRC Annual Gross Sales Report for
Standing Akimbo LLC for the taxable year
ended December 31, 2014; (3) copy of METRC
Annual Gross Sales Report for Standing
Akimbo LLC for the taxable year ended

App. 51
December 31, 2015; (4) copy of METRC transfer reports for the period of 1/1/2014 12/31/2014 for Standing Akimbo LLC; (5) copy
of METRC transfer reports for the period of
1/1/2015 - 12/31/2015 for Standing Akimbo
LLC; (6) copy of METRC annual harvest reports for the period of 1/1/2014-12/31/2014 for
Standing Akimbo LLC; (7) copy of METRC annual harvest reports for the period of 1/1/2015
- 12/31/2015 for Standing Akimbo LLC; (8)
copy of METRC monthly plants inventory reports for the period of 1/1/2014 - 12/31/2014,
for Standing Akimbo LLC; and (9) copy of
METRC monthly plants inventory reports for
the period of 1/1/2015 - 12/31/2015 for Standing Akimbo LLC.
[#1-2] at 1 (alterations omitted). Petitioners seek to
have the Summons quashed on the grounds that the
Summons does not comport with the Powell elements.
Lastly, Plaintiffs contend that Respondent lacked institutional good faith when issuing the Summons, and
that enforcing the Summons would constitute an
abuse of the Court’s process. Respondent seeks to dismiss the Petition to Quash [#1] and to enforce the Summons pursuant to 26 U.S.C. § 7604(a).
II.

Standard of Review

The Tenth Circuit Court of Appeals has explained
the legal standards for an action such as the present
as follows:

App. 52
When a party challenges a summons, the IRS
is allowed to bring an enforcement proceeding. 26 U.S.C. § 7604. To obtain enforcement,
the IRS “must meet the standards set out in
Powell.” United States v. Balanced Fin. Mgmt.,
Inc., 769 F.2d 1440, 1443 (10th Cir. 1985) (further citations omitted). Powell requires the
IRS to show that (1) the investigation will be
conducted pursuant to a legitimate purpose,
(2) the information sought may be relevant to
that purpose, (3) the information sought is not
already in the IRS’ possession, and (4) the administrative steps required by the Internal
Revenue Code have been followed. Id.
The government’s burden at this stage “is a
slight one because the statute must be read
broadly in order to ensure that the enforcement powers of the IRS are not unduly restricted.” Balanced Fin. Mgmt., 769 F.2d at
1443. Compliance with the Powell factors is
usually established by the affidavit(s) of the
person(s) who issued the summons. Id.
The burden then shifts to the party resisting
enforcement. The burden is a heavy one. Id. at
1444. Unless petitioners can show that enforcement would “constitute an abuse of the
court’s process, or that in issuing the summons the IRS lacked institutional good faith,”
the summons must be enforced. Anaya v.
United States, 815 F.2d 1373, 1377 (10th Cir.
1987) (citation and internal quotation marks
omitted).

App. 53
In meeting this burden, neither “legal conclusions nor memoranda of law will . . . suffice.”
Balanced Fin. Mgmt., 769 F.2d at 1444 (internal quotation marks omitted). Instead, [petitioners] “must factually oppose the Government’s allegations by affidavit.” Id. (internal
quotation marks omitted). If petitioners “cannot refute the government’s prima facie Powell showing or cannot factually support a
proper affirmative defense, the district court
should dispose of the proceeding on the papers
before it and without an evidentiary hearing.”
Id. (internal quotation marks omitted).
Villareal, 524 F. App’x at 422-23 (alterations omitted).
Respondents move both to enforce the Summons
pursuant to 26 U.S.C. § 7604(a) and for the Court to
dismiss the Petition [#1] pursuant to Fed. R. Civ. P.
12(b)(6). The Court notes, for clarity, that the burden
Petitioners must carry to overcome a prima facie
demonstration of the Powell requirements by Respondent is higher than the typical plausibility standard for
a Rule 12(b)(6) Motion. Cf. Villareal, 524 F. App’x at 423
(noting that “the traditional summary judgment
standards such as viewing the facts in [Petitioner’s] favor do not apply [and] . . . the party resisting enforcement of a summons ‘must do more than just produce
evidence that would call into question the Government’s prima facie case’ ” (internal citations omitted)).
As stated above, Petitioners’ burden of showing that
enforcement would “constitute an abuse of the
[C]ourt’s process, or that in issuing the summons the
IRS lacked institutional good faith,” is a heavy one. See

App. 54
Anaya, 815 F.2d at 1377 (citation and internal quotation marks omitted); see also Balanced Fin. Mgmt., 769
F.2d at 1443.
III.

Analysis

A. Whether Respondent Has Met the Powell
Standards
As indicated above, Respondent may make a
prima facie demonstration of the Powell elements by
submitting an appropriate affidavit of an IRS agent.
See Balanced Fin. Mgmt., 769 F.2d at 1443. Agent Pringle has submitted such an affidavit, see Decl. of Revenue Agent Pringle [#12-1], and the Court must now
examine whether Respondent has met its initial burden to show that (1) its investigation of Petitioners is
being conducted for a legitimate purpose, (2) the information sought by the Summons is relevant to that investigation, (3) the IRS is not already in possession of
the information sought by the Summons, and (4) the
IRS and its agent(s) have followed all administrative
steps required by the Internal Revenue Code. See Balanced Fin. Mgmt., 769 F.2d at 1443.
1. Legitimate Purpose
Agent Pringle states that he is investigating Petitioner Standing Akimbo’s federal tax liabilities and
has also opened examinations of its supposed owners
(the individual Petitioners) because Standing Akimbo
is a pass-through entity for tax purposes. Decl. of Revenue Agent Pringle [#12-1] ¶¶ 4, 9. Respondent argues

App. 55
that its investigation into Petitioners’ federal tax liabilities is a legitimate purpose. See Motion [#12] at 1,
14.
Petitioners argue that the IRS’ investigation lacks
a legitimate purpose because the “transfer reports” requested in the Summons would identify third parties
“who may have dealt with Standing Akimbo in the
past.” Petition [#1] at 9. This argument fails. First, Petitioners cite no authority, and the Court can find none,
that supports their argument that seeking the identity
of third parties is an illegitimate purpose under Powell. Rather, Petitioners cite 26 U.S.C. § 7609, which outlines special procedures for “John Doe” summonses.
Petition [#1] at 10. A “John Doe” summons is directed
at a group of unknown people to ascertain their identities so that the IRS can audit the individuals in that
group. See 26 U.S.C. § 7609. Petitioners contend that
the Summons at issue here is a “John Doe” summons
that must meet the requirements of § 7609(f ), most notably that the Summons must be served only after a
court proceeding. Motion [#1] at 10. This argument is
unpersuasive, however, because the Summons is directed to “Standing Akimbo LLC” and is therefore not
a “John Doe” summons. [#1-2] at 1. Additionally, even
if the IRS is seeking the identities of third parties, that
is a legitimate purpose. “If the Service is conducting an
investigation of a known taxpayer . . . who can identify
an unknown taxpayer or class of taxpayers . . . , and
the identities of the unknown taxpayers are relevant
to the investigation of the known taxpayer, the Service
can issue a standard, non-John Doe summons as part

App. 56
of the investigation of the known taxpayer.” IRM
25.5.7.4.3. Accordingly, the Summons is not constrained by § 7609(f ) and in any event, Petitioners
have failed to show that seeking third-parties’ identities is in itself an illegitimate purpose under Powell.3
Next, Petitioners contend that the investigation’s
true purpose is to somehow bring or prepare to bring
criminal charges against Petitioners pursuant to the
Controlled Substances Act (“CSA”), which continues to
list marijuana as a Schedule I drug. Response [#18] at
4. First, Petitioners state that “[t]hroughout these
summonses, [Respondent] seeks to establish the necessary elements of unlawful drug trafficking to apply
Section 280E.” Response [#18] at 1. Although the investigation is partially based on § 280E, which prohibits
tax deductions associated with trafficking in controlled
substances, § 280E is a civil statute. The Tenth Circuit
has previously held that investigating the applicability
of § 280E is a legitimate purpose for an IRS investigation, including when that investigation necessarily
leads the IRS to investigate whether the taxpayer has
been trafficking in illegal drugs. See Green Sol. Retail,
Inc. v. United States, 855 F.3d 1111 (10th Cir. 2017)
3

Moreover, the Court is not convinced that the IRS is even
seeking the identities of third parties, so much as it is seeking
information of Standing Akimbo’s business dealings so that it
may verify Standing Akimbo’s financial records. The Petition [#1]
itself states that “[i]t is unknown what specifically the IRS is seeking” from the transfer reports. [#1] at 9. Therefore, not only is it
unconvincing that seeking third parties’ identities is an illegitimate purpose, but the contention that Respondent seeks such
third parties’ identities is also unsubstantiated.

App. 57
(holding that “the IRS’s obligation to determine
whether and when to deny deductions under § 280E,
falls squarely within its authority under the Tax
Code”); see also Rifle Remedies, 2017 WL 6021421, at
*2; see generally Alpenglow Botanicals, LLC v. United
States, 2016 WL 7856477, at *4-*6 (D. Colo. Dec. 1, 2016).
Petitioners also argue that because “[Respondent]
has contended that it has the right and duty to share
the same information obtained [from the Summons]
with the Department of Justice . . . for criminal prosecution purposes[,] . . . criminal prosecution of the marijuana industry is imminent” and this makes the IRS’
purpose illegitimate. Response [#18] at 2. Again, Petitioners have not cited any authority supporting their
argument that because information gathered may potentially be used in a later criminal proceeding, the investigation as a whole is illegitimate. Moreover, the
contention that the IRS’ real purpose is to compile evidence for the Department of Justice to use against Petitioners in a later criminal investigation is purely
“conclusory.” See Green Sol. Retail, Inc., v. United
States, No. 16-mc-00137-PAB, 2018 WL 1305449, at *4
(D. Colo. Feb. 12, 2018) (rejecting petitioner’s argument
that a summons should not be enforced because the
IRS “is seeking to . . . place the[m] in criminal jeopardy
under the Controlled Substances Act” on the grounds
that the contention was “conclusory”).
Thus, the Court finds that Respondent has met its
burden to show that its investigation of Petitioners is
being conducted for a legitimate purpose. See Green
Sol. Retail, Inc., 2018 WL 1305449 at *2 (finding the

App. 58
defendant’s burden was met because the IRS agent’s
affidavit “establishes that the summonses are related
to an investigation of plaintiff ’s tax liabilities, something within the IRS’s authority”).
2. Relevant to the Legitimate Purpose
Second, Agent Pringle states in his declaration
that the purpose of the information sought by the Summons is to verify the accuracy of Petitioner Standing
Akimbo’s internal books and records and to determine
whether the information Standing Akimbo reported on
its returns is consistent with that information. Decl. of
Revenue Agent Pringle [#12-1] ¶ 14. Even more specifically, he states that METRC’s data, by accounting for
all marijuana plants and products within Colorado,
can “establish whether a marijuana business properly
reported its gross receipts and allowed deductions for
cost of goods sold.” Id. ¶ 13. Regarding the supposed
owners of Standing Akimbo, Agent Pringle states that
he is seeking records of their licenses from MED to verify that they are indeed the owners. Id. ¶ 23.
Petitioners briefly state that the “IRS cannot explain why documents for 2015 are relevant to a 2014
examination.” Petition [#1] at 3. However, it is well documented that the IRS expanded the scope of its examination to include 2015, and the IRS provided
documentation of this expansion to the parties. See
Decl. of Revenue Agent Pringle [#12-1] at ¶ 8; see also
Pringle Decl. Exhibit B [#12-2] at 5. Similarly, Petitioners state that “Mr. Pringle has not explained why these

App. 59
third-party analytical reports [i.e., the reports requested from MED] are necessary for his examination.” Petition [#1] at 4. However, the Summons “‘is not
to be judged by the relevance standards used in deciding whether to admit evidence in federal court’ . . . [rather], [r]elevance in the context of an IRS summons is
rather broad and includes materials that ‘might throw
light’ on the taxpayer’s return.” See Villareal, 524 F.
App’x at 423 (internal citations omitted); see also
United States v. Arthur Young & Co., 465 U.S. 805, 814
(1984) (“The language ‘may be’ [in 26 U.S.C. § 7602] reflects Congress’ express intention to allow the IRS to
obtain items of even potential relevance to an ongoing
investigation, without reference to its admissibility.”
(emphasis in original)). In short, Petitioners’ conclusory argument that the information sought from MED
is irrelevant does not meet the heavy burden to overcome Respondent’s prima facie demonstration of relevance. See Balanced Fin. Mgmt., 769 F.2d at 1443.
Accordingly, the Court finds that Respondent has
met its burden to show that the information sought by
the Summons is relevant to the investigation. See id.
3. The IRS Does Not Already Have the Information Sought
Agent Pringle states in his declaration that “[t]he
IRS does not already possess the books, papers, records, and other data sought by this summons.” See
Decl. of Revenue Agent Pringle [#12-1] ¶¶ 19, 27. Petitioners do not dispute this contention. See generally

App. 60
Motion [#1]; see generally Response [#18]. Accordingly,
the Court finds that Respondent has met its burden
with respect to this Powell element. See Balanced Fin.
Mgmt., 769 F.2d at 1443; see also Green Sol. Retail, Inc.,
2018 WL 1305449 at *3.
4. Required Administrative Steps
In their Petition [#1], Petitioners claim that Respondent has not followed the required administrative
steps because not “all possible efforts” were made to
contact the taxpayers whose cases are to be examined.
Petition [#1] at 6. They further state that “there is
nothing in the record to show that the IRS has served
any of the individual taxpayers with a Notice of Audit
or has even opened an audit of any of the individuals.”
Id. However, Respondent provides the relevant written
notifications addressed to the individual Petitioners,
and Agent Pringle states in his declaration that “[i]n
issuing and serving the summons on MED, I complied
with the administrative steps that the Internal Revenue Code requires.” Pringle Decl. Ex. C [#12-2] at 7-8;
Pringle Decl. Ex. D [#12-2] at 10-11; Decl. of Revenue
Agent Pringle [#12-1] ¶¶ 21, 29. Additionally, Petitioners
do not contest that this element is satisfied in their Response [#18]. Accordingly, the Court finds that this element is satisfied and that Respondent has fully met
its prima facie burden under Powell. See Balanced Fin.
Mgmt., 769 F.2d at 1443; see also Green Sol. Retail, Inc.,
2018 WL 1305449 at *3 (holding that the IRS met their
burden with respect to this Powell element under the
same set of circumstances).

App. 61
B. Petitioners’ Burden of Showing Lack of
Good Faith or Abuse of Process
Because Respondent has established its burden
under Powell, the burden shifts to the Petitioners. See
Villareal, 524 F. App’x at 422. More specifically, unless
Petitioners “can show that enforcement would constitute an abuse of the [C]ourt’s process, or that in issuing
the [S]ummons the IRS lacked institutional good faith,
the [S]ummons must be enforced.” See id. (quoatation
omitted). To do this, neither “legal conclusions nor
memoranda of law will . . . suffice.” Balanced Fin.
Mgmt., 769 F.2d at 1444 (internal quotation marks
omitted). Instead, Petitioners “must factually oppose
the Government’s allegations by affidavit.” See id. (internal quotation marks omitted). If Petitioners “cannot
refute the government’s prima facie Powell showing or
cannot factually support a proper affirmative defense,
the district court should dispose of the proceeding on
the papers before it and without an evidentiary hearing.” Id. (internal quotation marks omitted). Petitioners present several arguments that aim to show that
the Summons was issued with a lack of institutional
good faith, or that enforcing the Summons would constitute an abuse of the Court’s processes. The Court
considers each in turn.
1. Whether Potential Criminal Prosecution
Indicates Bad Faith
In their Response [#18], Petitioners argue that the
investigation into “inherently criminal activity” is not
only an illegitimate purpose, but is also not in good

App. 62
faith. Response [#18] at 19. Specifically, they note that
in meeting its good faith requirement, Respondent
must “not abandon in an institutional sense, . . . the
pursuit of civil tax determination or collection.” Response [#18] at 19 (quoting United States v. LaSalle
Nat’l Bank, 437 U.S. 298, 318 (1978)). However, Petitioners have not shown that Respondent has abandoned this pursuit. Again, “[t]he IRS . . . has ample
authority to determine whether a taxpayer has trafficked in controlled substances for the purposes of
§ 280E.” Futurevision, LTD, 2017 WL 2799931, at *1
(emphasis added); see also Green Sol. Retail, Inc., 855
F.3d at 1121; Alpenglow Botanicals, 2016 WL 7856477,
at *4. Accordingly, insofar as this is an argument that
enforcement of the Summons would constitute an
abuse of the Court’s process or that the IRS lacked institutional good faith in issuing the Summons, the argument fails.
2. Whether MED Would be Improperly Forced
to Create Documents
Petitioners next contend that MED would be
forced to “create documents” by the Summons and that
the IRS’ summoning power does not extend that far.
Petition [#1] at 7. This argument fails as well. The argument is a carbon copy of the argument presented
by petitioner’s counsel in Rifle Remedies. See 2017 WL
6021421, at *2. Here, as there, it misses the mark.
“Should the items requested exist and be in MED’s
possession, then MED should be expected to produce
that which has been requested. . . . [If ], however, the

App. 63
summons should require MED to produce a report that
it would not ordinarily or otherwise produce from its
database of information, then respondent very well
may find itself having to process that information itself.” See id. In other words, it is true that the IRS cannot force MED to create documents, but this does not
mean that enforcing the Summons would constitute an
abuse of the Court’s process or that the IRS lacked institutional good faith, especially given that MED must
still produce all documents and raw data that it does
possess. See id.
3. Whether The Information Sought by the
Summons is Protected by the Fourth
Amendment
The Fourth Amendment protects against unreasonable governmental intrusions into one’s private
“house[ ], papers, and effects. . . .” U.S. CONST. amend.
IX. Its protection applies to “what [one] seeks to preserve as private, even in an area accessible to the public . . . .” Katz v. United States, 389 U.S. 347, 351 (1967).
However, “[w]hat a person knowingly exposes to the
public, even in his own home or office, is not a subject
of Fourth Amendment protection.” Id. (citing Lewis v.
United States, 385 U.S. 206, 210 (1966)). Moreover,
“[t]he Fourth Amendment protects people, not places.”
Id. “Whether the person claiming a constitutional violation ‘has had his own Fourth Amendment rights
infringed’ . . . requires examination of whether the person claiming the constitutional violation had a legitimate expectation of privacy in the premises’ searched.”

App. 64
Byrd v. United States, 584 U.S. ___ (slip op. at 6-7)
(2018) (quoting Rakas v. Illinois, 439 U.S. 128, 133, 143
(1978)).
The individual Petitioners contend that they have
a reasonable expectation of privacy in the information
sought by the Summons and it is therefore protected
by the Fourth Amendment. Response [#18] at 15-16.
Respondent contends that the Summons does not violate the Fourth Amendment and bases its reasoning on
Miller v. United States, 425 U.S. 435 (1976). In Miller,
a subpoena was sent to the respondent’s bank requesting it produce “all records of accounts.” 425 U.S. at 437
(internal quotations omitted). Miller involved the issue
of whether the Bank Secrecy Act, which requires banks
to keep certain records, changed the Fourth Amendment analysis afforded to an individual’s banking information. “[I]t was firmly settled, before the passage
of the Bank Secrecy Act, that an Internal Revenue Service summons directed to a third-party bank does not
violate the Fourth Amendment rights of a depositor
under investigation.” Id. at 444. In ruling that the respondent did not have a Fourth Amendment interest
in the subpoenaed documents, the Court reasoned that
“[t]he depositor takes the risk, in revealing his affairs
to another, that the information will be conveyed by
that person to the Government . . . even if the information is revealed on the assumption that it will be
used only for a limited purpose. . . .” Id. at 443. In relation to the Fourth Amendment analysis, it did not matter that the Bank Secrecy Act required the records to

App. 65
be kept by banks, because the depositor still “voluntarily conveyed” the information to the bank. Id. at 442.
Petitioners contend that they “do not voluntarily
give . . . information” to IVIED; rather, they are required to by law. Response [#18] at 17. This, however,
is not entirely accurate. Although they are required by
law, as licensees in the marijuana industry, to relay certain information to MED, they are not required or
forced to become licensees. Like bank depositors, Petitioners still “t[ook] the risk” of becoming licensees and
consequentially “revealing [their] affairs to” MED. See
Miller, 425 U.S. at 443. The individual Petitioners are
voluntarily engaging in certain business activities and
in the course of doing so voluntarily gave MED information which may otherwise have been protected by
the Fourth Amendment. Cf. Maehr v. United States, No.
MC 08-00018-BB, 2008 WL 4617375, at *4 (D.N.M.
Sept. 10, 2008) (holding that the records sought by the
IRS belonged to a separate legal entity other than petitioner, so that the Fourth Amendment did not protect
the petitioner in that case). The fact that MED is required by law to obtain certain information, much like
the bank was required by the Bank Secrecy Act to keep
certain records in Miller, does not impact the Fourth
Amendment analysis. See Miller, 425 U.S. at 443. The
individual Petitioners willingly gave information to a
third-party so that they could engage in business activities; as such they do not have a Fourth Amendment
interest in that information. See Miller, 425 at 443; see
also Katz, 389 U.S. at 351.

App. 66
Because the information sought by the Summons
is not protected by the individual Petitioners’ Fourth
Amendment rights, this argument that enforcing the
Summons would constitute an abuse of the Court’s process, or that the IRS lacked institutional good faith
when issuing the Summons, fails.
4. Whether The Summons is Overbroad
Next, Petitioners argue that the Summons is overbroad and should therefore not be enforced. It is true
that “[a] summmons will be deemed unreasonable and
unenforceable if it is overbroad and disproportionate
to the ends sought.” United States v. Coopers &
Lybrand, 550 F.2d 615, 621 (10th Cir. 1977). Specifically, Petitioners claim that the Summons “asks for all
licenses of any entity [and] [t]he Government does
not explain why it needs licenses [ ] outside that of
Standing Akimbo.” Response [#18] at 18. This is incorrect. The Summons asks for a “[c]omplete listing of
all licenses held for the period of January 1 2014 - December 31 2015 for Standing Akimbo LLC.” [#1-2] at 1
(emphasis added). This request does not constitute a
“fishing expedition” and Agent Pringle states in his
Declaration that these documents are relevant because they will “verify that the[ ] [individual Petitioners] own Standing Akimbo.” See Coopers & Lybrand,
550 F.2d at 621 (quoting United States v. Dauphin
Trust Co., 385 F.2d 129 (3rd Cir. 1967)); see also supra
section A2; Decl. of Revenue Agent Pringle [#12-1] ¶ 23.

App. 67
Petitioners do not raise this argument with respect to any other portion of the Summons. Accordingly, the Court finds that the Summons are
sufficiently narrowly tailored so as not to indicate a
lack of institutional good faith or that enforcement of
the Summons would constitute an abuse of the Court’s
process.
5. Whether Enforcing the Summons Would
Improperly Compel Individuals to Commit a State Law Crime
Finally, Petitioners argue that enforcing the Summons would compel individuals to commit a state law
crime because disclosure of METRC information is a
class 1 misdemeanor pursuant to Colo. Rev. Stat. § 1243.3-201(5). As indicated throughout this Recommendation, the IRS has issued summonses to MED relating to various marijuana dispensaries and despite
many attempts by the dispensaries, the summonses
have been enforced by this Court and the Tenth Circuit. See Green Sol. Retail, Inc., 2018 WL 1305449; see
also Futurevision, LTD, 2017 WL 2799931; see also Rifle Remedies, 2017 WL 6021421; see also Green Sol. Retail, Inc., 855 F.3d 1111. Given that there is no evidence
that MED itself has raised objections to these enforced
summonses, it is not clear that this statute is applicable to the present situation. The statute itself provides
that “[a]ny person who discloses records or information
in violation of the provisions of this article commits a
class 1 misdemeanor. . . .” Colo. Rev. Stat. § 12-43.3201(5) (emphasis added). The statute goes on to say

App. 68
that employees of MED must “[m]aintain the confidentiality of reports or other information obtained from a
medical or retail licensee . . . from public inspection
pursuant to state law.” Colo. Rev. Stat. § 12-43.3202(1)(d). Far from turning over the information for
“public inspection,” MED will turn over the information to the IRS if the Summons is enforced. The IRS
makes “privacy and security of taxpayer and employee
information . . . one of [its] highest priorities.” IRM
10.5.1.1.1. Moreover, while Petitioners urge that “[t]he
Court should be wary of using its powers to compel a
state crime[,]” the Court is no less wary of limiting the
IRS’ broad information-gathering powers. See Arthur
Young & Co., 465 U.S. at 816 (stating that “restrictions
upon the IRS summons power should be avoided absent unambiguous directions from Congress”).
Accordingly, Petitioners have not met their heavy
burden to show that enforcement of the Summons
would constitute an abuse of the Court’s process or
that the IRS lacked institutional good faith in issuing
the Summons. Because the Court is fully apprised of
the issues based on the parties’ briefing, the Court declines to hold a hearing.
IV.

Conclusion

For the foregoing reasons, the Court respectfully
RECOMMENDS that the Petition to Quash Summons [#1] be DENIED, including the request for an
evidentiary hearing, and that the Motion to Dismiss
and Enforce Summons [#12] be GRANTED.

App. 69
IT IS HEREBY ORDERED that pursuant to Fed.
R. Civ. P. 72, the parties shall have fourteen (14) days
after service of this Recommendation to serve and file
any written objections in order to obtain reconsideration by the District Judge to whom this case is assigned. A party’s failure to serve and file specific,
written objections waives de novo review of the Recommendation by the District Judge, Fed. R. Civ. P. 72(b);
Thomas v. Arn, 474 U.S. 140, 147-48 (1985), and also
waives appellate review of both factual and legal questions. Makin v. Colo. Dep’t of Corr., 183 F.3d 1205, 1210
(10th Cir. 1999); Talley v. Hesse, 91 F.3d 1411, 1412-13
(10th Cir. 1996). A party’s objections to this Recommendation must be both timely and specific to preserve an
issue for de novo review by the District Court or for
appellate review. United States v. One Parcel of Real
Prop., 73 F.3d 1057, 1060 (10th Cir. 1996).
Dated: August 6, 2018

BY THE COURT:
/s/ Kirsten L. Mix
Kirsten L. Mix
United States
Magistrate Judge

App. 70
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------------------------------

STANDING AKIMBO, LLC,
a Colorado limited liability
company, et al.,
Petitioners - Appellants,
v.
UNITED STATES OF
AMERICA, through its
agency the Internal
Revenue Service,

No. 19-1049 (D.C. No.
1:17-MC-00169-WJMKLM) (D. Colo.)

Respondent - Appellee.
-----------------------------------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------------------------------

(Filed Jun. 10, 2020)
-----------------------------------------------------------------------------------------------

Before LUCERO, PHILLIPS, and MORITZ, Circuit
Judges.
-----------------------------------------------------------------------------------------------

Appellants’ petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court who are in regular
active service. As no member of the panel and no judge

App. 71
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court
/s/ Christopher M. Wolpert
CHRISTOPHER M. WOLPERT,
Clerk

